<html>
<title> - MENTALLY ILL OFFENDER TREATMENT AND CRIME REDUCTION ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




    MENTALLY ILL OFFENDER TREATMENT AND CRIME REDUCTION ACT OF 2003

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 1194

                               __________

                             JUNE 22, 2004

                               __________

                             Serial No. 98

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-365                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

TOM FEENEY, Florida                  ROBERT C. SCOTT, Virginia
BOB GOODLATTE, Virginia              ADAM B. SCHIFF, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
MARK GREEN, Wisconsin                MAXINE WATERS, California
RIC KELLER, Florida                  MARTIN T. MEEHAN, Massachusetts
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia

                      Jay Apperson, Chief Counsel

                        Elizabeth Sokul, Counsel

                          Katy Crooks, Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 22, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress From the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress From 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

Ms. Cheri Nolan, Deputy Assistant Attorney General, Office of 
  Justice Programs, U.S. Department of Justice
  Oral Testimony.................................................     4
  Prepared Statement.............................................     6
Mr. Ted Sexton, Sheriff, Tuscaloosa County Sheriff's Office, 
  Tuscaloosa, Alabama
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
Professor John Monahan, Ph.D., Henry and Grace Doherty Professor 
  of Law, University of Virginia, and Director, MacArthur 
  Research Network on Mandated Community Treatment
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Mrs. June P. Poe, Past President, National Alliance for the 
  Mentally Ill of Roanoke Valley, Roanoke, VA, on behalf of the 
  National Alliance for the Mentally Ill
  Oral Testimony.................................................    17
  Prepared Statement.............................................    19

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Ted Strickland, a 
  Representative in Congress From the State of Ohio..............    30
Prepared Statement of the Honorable Ms. Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas.............    33
Prepared Statement of the Honorable William D. Delahunt, a 
  Representative in Congress From the State of Massachusetts.....    38
Letter from Jamie Fellner, Director of Human Rights Watch........    41
Letter from Larry E. Naale, Executive Director of the National 
  Association of Counties........................................    43

 
    MENTALLY ILL OFFENDER TREATMENT AND CRIME REDUCTION ACT OF 2003

                              ----------                              


                         TUESDAY, JUNE 22, 2004

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:03 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Howard Coble 
(Chair of the Subcommittee) presiding.
    Mr. Coble. Good afternoon, ladies and gentlemen. The 
Judiciary Subcommittee on Homeland Security, Terrorism, and 
Crime will come to order.
    Before I begin, I am told, Ms. Nolan, you need to depart at 
4:15 today, so we will try to accommodate you to that end.
    The Bureau of Justice Statistics estimated in 1999 that 16 
percent of State prison inmates, seven percent of Federal 
inmates, and 16 percent of those in local jails who are on 
probation reported either a mental condition or an overnight 
stay in a mental hospital. According to BJS, white inmates or 
Caucasian inmates were more likely than blacks or Hispanics to 
report a mental illness, and offender mental illness was 
highest for those between the ages of 45 and 54.
    According to this study and others, homelessness and 
unemployment are more prevalent among the mentally ill. 
Additional statistics show that six in ten mentally ill State 
inmates were under the influence of alcohol or drugs at the 
time of the offense, and a third of all mentally ill offenders 
were alcohol dependent.
    BJS also found that six in ten of the mentally ill received 
treatment while incarcerated. These statistics show the 
importance of mental health treatment as well as additional 
assistance for the mentally ill non-violent offenders who end 
up in the criminal justice system. The statistics also reveal 
the importance of treatment of not only the drug or alcohol 
abuse issues, but also the underlying mental illness.
    This hearing will examine the prevalence of mental illness 
in the criminal justice system and explore methods of 
addressing this problem. Currently, the Department of Justice 
administers a Mental Health Court grant program in some States. 
This legislation, which we will review today, S. 1194, the 
``Mentally Ill Offender Treatment and Crime Reduction Act of 
2003,'' would create a grant program to encourage more States 
to address this issue.
    Now, I have discussed this bill in detail with Senator 
DeWine, and he is enthusiastically supportive, as am I, but I 
have some second thoughts about the authorized cost. We can 
talk about that another day or perhaps today.
    But I look forward to hearing from our witnesses today to 
shed some light on this important issue, and I am now pleased 
to recognize the distinguished gentleman from Virginia, Mr. 
Bobby Scott, the Ranking Member.
    Mr. Scott. Thank you, Mr. Chairman. I am pleased that you 
have scheduled this hearing on the ``Mentally Ill Offender 
Treatment and Crime Reduction Act of 2003.'' This bill, which 
passed the Senate by unanimous consent on October 27, 2003, is 
sponsored by Senators DeWine and Leahy. It is essentially the 
same as H.R. 2387, sponsored by Representative Strickland, 
except for the provisions to include substance abuse programs 
among those with which there is required collaboration under 
the bill.
    This legislation represents phase two of an effort that 
started in the 106th Congress when Congressman Strickland and 
Senator DeWine led a successful effort in getting, quote, 
``Americans Law Enforcement and Mental Health Project Act'' 
passed. That bill created a Department of Justice grant program 
which helped State and local governments establish Mental 
Health Courts. These courts provide specialized dockets which 
bring mental health professionals, social workers, public 
defenders, and prosecutors together to divert mentally ill 
offenders into a treatment plan.
    The indication is that the pilot Mental Health Courts 
projects that we authorized have been proven successful. We 
will hear the details from our witnesses, but it is clear that 
a significant number of Mental Health Courts and other 
diversion programs have sprung up since the law was passed. It 
is also clear that they have successfully diverted individuals 
with mental health problems from the criminal justice system 
into treatment, restoring individuals to healthy, productive 
lives, and saving money, comparing the lower cost of treatment 
to incarceration.
    S. 1194 will build on the Law Enforcement and Mental Health 
Project Act's success by providing additional resources for 
communities that wish to create Mental Health Courts. The bill 
will make a significant commitment to addressing the needs of 
both the criminal justice system and the mentally ill offender 
population. It offers grants to communities to develop 
diversion programs, mental health treatments in jails and 
prisons, and transition and after-care services to facilitate 
reentry into the community. The bill also requires 
collaboration between criminal justice, mental health 
treatment, and substance abuse and other agencies at the local 
level in collaboration with the Federal level through creation 
of an interagency task force.
    This is clearly necessary, appropriate, and helpful 
legislation to address a serious problem in the criminal 
justice and mental health treatment administration. I look 
forward to the testimony of our witnesses and working with you 
and our colleagues, Mr. Chairman, in getting this bill signed 
into law.
    Mr. Coble. I thank the gentleman, and I am pleased to 
welcome, as well, the distinguished gentleman from Florida, Mr. 
Feeney, and the distinguished gentleman from Virginia, Mr. 
Goodlatte.
    Mr. Goodlatte. Mr. Chairman?
    Mr. Coble. The gentleman from Virginia?
    Mr. Goodlatte. Mr. Chairman, I would ask unanimous consent 
that a statement from Representative Strickland from Ohio be 
entered into the record.
    Mr. Coble. Without objection, it will be received.
    [The prepared statement of Mr. Strickland follows in the 
Appendix]
    Mr. Coble. Our first witness today is Ms. Cheri Nolan. Ms. 
Nolan was appointed as Deputy Assistant Attorney General for 
the Office of Justice Programs in July of 2001. She has served 
four Attorneys General and three Presidents. Prior to her 
service at OJP, Ms. Nolan worked for the television show 
``America's Most Wanted,'' known to all of us, as well as 
serving in the White House staff of President Ronald Reagan and 
in various cabinet agencies, including the Departments of 
Commerce, Energy, and Treasury.
    Our second witness is Mr. Ted Sexton. Mr. Sexton has been 
the Sheriff of Tuscaloosa County since January 1991 and is 
currently serving in his fourth term. As Sheriff, Mr. Sexton 
served eight courts and has law enforcement jurisdiction over 
1,340 square miles within Tuscaloosa County. He is currently 
Vice President of the National Sheriffs Association and will be 
President of the Association in 2005. Mr. Sexton earned his 
Bachelor of Arts degree at the University of Alabama and is a 
graduate of the FBI National Academy. And Mr. Sexton--pardon my 
immodesty, I am a fairly decent geographer--I assume Tuscaloosa 
County is in Alabama. I didn't know that was certain, but I 
figured that. [Laughter.]
    Next, we have Dr. John Monahan. Dr. Monahan is a 
psychologist and holds the Doherty Chair of Law at the 
University of Virginia, where he is a professor of psychology 
and psychiatric medicine. Dr. Monahan has been appointed to the 
Committee on Law and Justice of the National Research Council. 
His work has been cited in numerous court decisions, and he has 
received distinguished awards for two of his books, The 
Clinical Prediction of Violent Behavior and Rethinking Risk 
Assessment.
    Finally, we welcome Mrs. June Poe. Mrs. Poe, I believe you 
are a constituent of Congressman Goodlatte, and he has 
requested the honor of introducing you.
    Mr. Goodlatte. Mr. Chairman, thank you very much. Thank you 
for holding this hearing on what is clearly a very important 
issue that needs to be carefully examined because I don't think 
we are giving our courts and our prison system, frankly, the 
kind of flexibility they need to have treatment and punishment 
fit the circumstances of the individuals who present themselves 
to them.
    We have somebody here with us today who can speak from 
personal experience. She is speaking on behalf of the National 
Alliance for the Mentally Ill, but she has five children. She 
is a widow, and I know that that has been a challenge for her 
because one of her children does have a mental illness and has 
had some problems with our criminal justice system as a result.
    So I very much welcome her and am delighted to have the 
opportunity. I thank you, Mr. Chairman, for inviting her to 
testify today.
    Mr. Coble. I thank the gentleman from Virginia.
    Representative Strickland, the gentleman from Ohio, I know 
you have been very interested in this legislation, and even 
though you don't sit as a Member of this Subcommittee, we would 
be happy to have you join us up here. You would not be able, 
however, to participate and question the witness. If you would 
like to come up and sit with us, you would be welcome to do so.
    Mr. Strickland. Thank you, Mr. Chairman.
    Mr. Coble. Ladies and gentlemen, it has become the practice 
of the Subcommittee to administer the oath to our witnesses 
appearing before us, so if you all would please stand and raise 
your right hands.
    Do each of you solemnly swear that the testimony you are 
about to give this Subcommittee shall be the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Ms. Nolan. I do.
    Mr. Sexton. I do.
    Mr. Monahan. I do.
    Mrs. Poe. I do.
    Mr. Coble. Let the record show that each of the witnesses 
has answered in the affirmative and you may be seated.
    Again, I welcome you all. Folks, so you will be familiar 
with the drill, we operate under the 5-minute rule here. When 
you see that red light illuminate in your eye, that is your 
warning that the 5 minutes have elapsed, and if you don't cease 
and desist I am going to order Sheriff Sexton to take you---- 
[Laughter.]
    Mr. Scott and I are not that hard-hearted, but in view of 
Mrs. Poe's schedule, as well, we do try to do the 5-minute 
rule. Your testimony has been examined. The amber light will 
appear first and the amber light will tell you that the ice is 
becoming thin, then the red light, the 5 minutes have expired.
    Ms. Nolan, if you will commence.

 TESTIMONY OF CHERI NOLAN, DEPUTY ASSISTANT ATTORNEY GENERAL, 
     OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF JUSTICE

    Ms. Nolan. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Scott, and Members of the Subcommittee, I am Cheri Nolan, 
Deputy Assistant Attorney General of the Office of Justice 
Programs. I am pleased to be here on behalf of the United 
States Department of Justice, especially the Office of Justice 
Programs, to discuss how the criminal justice system responds 
to individuals with mental illness who are involved with the 
system.
    This is an issue that cuts across Federal, State, and local 
boundaries, with mentally ill individuals being held everywhere 
from city lockups to Federal prison facilities. For example, 
OJP's Bureau of Justice Statistics reported that in the year 
2000, 13 percent of State prisoners were receiving some mental 
health therapy and nearly 10 percent were receiving 
psychotropic medications. Those figures translate to 143,000 
prisoners receiving mental health therapy and 110,000 on 
medications.
    Another BJS report found that 16 percent of correctional 
detainees self-reported that they had a mental illness. This 
increasing number of people with mental illness in the criminal 
justice system has become one of the most pressing problems 
facing law enforcement in corrections today and it is an issue 
with both major public safety and fiscal implications.
    However, we need to be clear at the outset that individuals 
who are found guilty of committing crimes must be held 
accountable. If they commit a serious crime, then they need to 
be incarcerated whether or not they are mentally ill. We will 
not absolve someone of responsibility for committing a crime 
simply because he or she has a mental illness.
    At the same time, we hear from police, prosecutors, judges, 
and correctional administrators that they are frustrated with 
existing responses to people with mental illness who commit 
less serious non-violent crimes. On the one hand, when these 
individuals are not incarcerated and remain in the community, 
they continue to tax public safety resources and can be a 
threat to public safety. On the other hand, even when those 
with mental illness do spend time in jail, the criminal justice 
system is a revolving door with extremely high recidivism rates 
for persons with mental illness.
    Without connections to treatment, support services, and 
housing, mentally ill individuals will continue to re-offend 
and jeopardize public safety. That is why pre-release planning 
and cross-agency collaboration are vital to the successful 
reentry of these individuals into the community.
    Today, however, this collaboration is the exception, not 
the rule, but we believe that OJP can be a valuable resource to 
State and local governments in these efforts. We can promote 
promising practices, provide technical assistance, and conduct 
research that will stimulate the development and replication of 
programs and policies that will increase public safety and make 
the justice system more efficient.
    For example, OJP's Bureau of Justice Assistance has 
published a monograph which is the first in-depth examination 
of Mental Health Courts and will be a guide to communities in 
developing their own courts. BJA has also provided grants 
totaling approximately $5.5 million to 37 jurisdictions in 29 
different States to fund Mental Health Courts. These 2-year 
grants, totaling about $150,000 per site, have helped some 
existing courts add key components to their programs and have 
helped other courts launch their operations.
    BJA sponsored the first ever national meeting of mental 
health court practitioners in Cincinnati, Ohio, this past 
January, which was part of OJP's overall goal of providing 
information and technical assistance to the field. We will also 
publish guides for implementing and operating Mental Health 
Courts later this year.
    Through these activities and through our own interagency 
collaboration with the Department of Health and Human Services, 
as well as with the Council of State Governments, we are able 
to demonstrate to State and local governments that the 
collaboration between mental health and criminal justice 
agencies is not only possible, but extremely valuable.
    My experience over the years and most recently at OJP tells 
me that no one sector or one agency alone can resolve the 
issues surrounding the involvement of mentally ill individuals 
in the criminal justice system. However, together, we can come 
closer to an outcome that will both provide necessary treatment 
and preserve public safety.
    I thank you for your interest in this critical issue and I 
will be pleased to answer any questions that you might have.
    Mr. Coble. Thank you, Ms. Nolan.
    [The prepared statement of Ms. Nolan follows:]

                   Prepared Statement of Cheri Nolan

    Mr. Chairman, Mr. Scott, and Members of the Subcommittee, I am 
Cheri Nolan, Deputy Assistant Attorney General of the Office of Justice 
Programs. I am pleased to be here this afternoon on behalf of the U.S. 
Department of Justice (DOJ) and especially the Office of Justice 
Programs to discuss how the criminal justice system responds to 
individuals with mental illness who are involved with the system.
    This is an issue that cuts across federal, state, and local 
boundaries, with mentally ill individuals being held everywhere from 
city lockups to federal prison facilities.
    It is becoming clear that the increasing number of people with 
mental illness in the criminal justice system is one of the most 
pressing problems facing law enforcement and corrections today. This 
issue has both major public safety and fiscal implications.
    To understand the policy implications facing us, I would like to 
highlight some data about what prisons and jails are doing, and what 
has become a more and more common profile among offenders. According to 
a special report by the Office of Justice Programs' Bureau of Justice 
Statistics (BJS), in 2000, nearly all (95 percent) state adult 
confinement facilities screened inmates for mental health problems. Of 
the nation's 1,558 state public and private adult correctional 
facilities, 1,394 reported they provided mental health services to 
their inmates. Nearly 70 percent of facilities housing state prison 
inmates reported that as a matter of policy they screened inmates at 
intake, 13 percent of state prisoners were receiving some mental health 
therapy or counseling services at midyear 2000, and nearly 10 percent 
of state prisoners were receiving psychotropic medications. BJS's 
report was based on the ``2000 Census of State and Federal Adult 
Correctional Facilities,'' which included--for the first time--items 
related to facility policies on mental health screening and treatment.
    Another BJS report found that 16 percent of correctional detainees 
self-reported they had a mental illness. We all recognize that the 
accuracy of this estimate depended on the ability and willingness of 
inmates to report such problems, which makes a strong argument for 
using uniform, proven assessment and screening tools. However, if this 
prevalence rate of mental illnesses among correctional detainees were 
used as the actual rate for program planning, there would be 
approximately 2 million individuals with serious mental illnesses 
admitted to U.S. jails and prisons each year.
    I'm sure that we agree that all individuals who are found guilty of 
committing crimes must be held accountable. If the crime is serious, 
incarceration is the appropriate response, regardless of whether the 
perpetrator has a mental illness. Our policy is clear: we will not 
absolve someone of any responsibility for committing a crime simply 
because he or she has a mental illness.
    At the same time, police, prosecutors, judges, and corrections 
administrators regularly voice their frustrations about existing 
responses to people with mental illness who commit low-level, less-
serious crimes. When incarceration is not the answer, individuals with 
mental illness often are returned to the community, where, without 
access to appropriate housing and comprehensive mental health care and 
support services, they are more likely to be picked up for low level 
crimes once again in a costly and repetitive cycle.
    Yet, even for those with mental illness who spend time in jail, the 
criminal justice system is a ``revolving door.'' Recidivism rates for 
individuals with mental illness are extremely high. Let me cite two 
examples: first, according to an October 1998 article in Psychiatric 
Services, more than 70 percent of inmates with mental illness released 
from the Lucas County, Ohio jail were re-arrested over the course of 3 
years, and second, according to the Los Angeles County Board of 
Supervisors' Task Force on Incarcerated Mentally Ill, about 90 percent 
of Los Angeles County jail inmates with mental illness are repeat 
offenders, and almost one-third of the inmates have been incarcerated 
10 or more times.
    These figures are a testament to the difficulty of ensuring that 
people with mental illness leaving correctional facilities are 
connected to needed treatment, support services, and housing. Without 
those connections, these individuals will continue to re-offend and 
public safety will continue to be jeopardized.
    The involvement of people with mental illness in the justice system 
also is extremely expensive. County jails are forced to use huge 
portions of their pharmacy budgets for mental health treatment. 
According to Oregon's Lane County Sheriff's Office and Tennessee's 
Benjamin Harrington/Knox County Mental Health Association, 
respectively, in the past year, 58 percent of the pharmacy budget in 
Lane County and 80 percent in Knox County were spent on psychotropic 
medications. Many inmates with serious mental illness require 24-hour 
suicide watch. The New York Monroe County Sheriff's Office, which 
houses just over 1,000 inmates in its jail, spent $315,000 in 1 year 
alone on overtime for officers assigned to this responsibility.
    Managing individuals with mental illness in prison is no less 
costly. The Pennsylvania Department of Corrections estimates that an 
inmate with serious mental illness costs $140 per day to incarcerate, 
nearly twice as much as an inmate without serious mental illness.
    In response to the need to address the combined problems of 
offender management and increasing costs, state and local governments 
across the country are developing programs and policies unique to their 
jurisdiction's criminal justice systems that aim to improve the 
response to people with mental illness from the initial contact with 
law enforcement through the offender's re-entry to the community from 
prison.
    For example, state and local governments have encouraged police 
departments to form crisis intervention teams, developed pretrial 
screening for defendants with mental illness, established mental health 
courts, specialized caseloads for probation officers, introduced new 
instruments to screen newly admitted inmates for mental illness, 
implemented therapeutic communities in jails and prisons for offenders 
with co-occurring substance abuse and mental health disorders, and 
formed multidisciplinary teams to work on inmates' re-entry planning.
    At the heart of each of these emerging strategies is collaboration 
between the criminal justice and mental health systems, the crucial 
involvement of substance abuse treatment providers and other social 
service providers, and the need for affordable housing and employment. 
As we have demonstrated in the cross-agency Serious and Violent 
Offender Re-entry Initiative in which DOJ has partnered with the 
Department of Labor and the Department of Health and Human Services, no 
one sector or agency can solve this problem working alone. Together, 
they can make a difference.
    Today, however, this collaboration is the exception, not the rule. 
As we have learned, even those leaders in the criminal justice and 
mental health systems who are interested in working together are unsure 
of what they can do, and, despite the possibility of generating 
significant savings to the state and county, the limited budgets in 
most jurisdictions make it very difficult to experiment with new ideas.
    Yet, I believe that OJP can be a valuable resource to state and 
local governments. By promoting promising practices, providing 
technical assistance, and working with other DOJ agencies as well as 
with both the Substance Abuse and Mental Health Services Administration 
(``SAMHSA'') (in the Department of Health and Human Services) and NIMH 
to conduct research, we can stimulate the development and replication 
of programs and policies that will increase public safety and make the 
justice system more efficient.
    For instance, the Bureau of Justice Assistance (BJA) has supported 
the investigation and implementation of mental health courts. In 2000, 
BJA published the first in-depth examination of mental health courts, 
``Emerging Judicial Strategies for the Mentally Ill in the Criminal 
Caseload.'' This monograph described the organization and operation of 
four of the earliest mental health courts and has helped guide 
communities in developing their own mental health courts.
    In the Fiscal Year 2003 appropriation, BJA received funding for 
mental health courts, which we have administered according to the 
parameters established in P.L. 106-515, ``America's Law Enforcement and 
Mental Health Project.'' BJA has provided grants totaling approximately 
$5.5 million to 37 jurisdictions in 29 different states. These two-year 
grants, totaling approximately $150,000 per site, have helped some 
existing mental health courts add key components to their program and 
helped other courts in the planning stages launch their operations.
    Beyond direct grant funding, it is our responsibility to the field 
to provide information and technical assistance grounded in research 
and representing sound criminal justice practice, regardless of whether 
the project receives OJP funding. That is why, in addition to the grant 
funding, OJP promotes technical assistance. Through this technical 
assistance, BJA sponsored the first-ever national meeting of mental 
health court practitioners in Cincinnati, Ohio this past January. In 
addition, grantee courts are receiving guidance on issues such as 
connecting court clients to housing, responding to the particular needs 
of women, and gathering outcome data.
    Later this year, BJA will publish guides for implementing and 
operating mental health courts. As with all of our programs, we are 
working with the field to collect outcome data, which will further 
inform our policy decisions in this area. OJP's National Institute of 
Justice (NIJ), is one of BJA's partners in these endeavors. NIJ plans 
to publish the results of its examination of the referral and decision-
making processes of seven BJA-funded mental health courts.
    While mental health courts can be a component of addressing the 
problems associated with offenders with mental illness, other 
approaches are needed as well. That is why BJA has supported the 
Criminal Justice/Mental Health Consensus Project, which is coordinated 
by the Council of State Governments. The landmark Consensus Project 
Report provides hundreds of recommendations that policymakers and 
practitioners agree will improve the response to people with mental 
illness who come in contact with the criminal justice system.
    In recent months, we have taken several steps at BJA to help state 
and local governments think about this issue from arrest through re-
entry.
    First, the Director of BJA has appointed a senior policy advisor 
for criminal justice and mental health issues. This is the first time 
the agency has had such a position. It demonstrates our recognition 
that the involvement of people with mental illness in the justice 
system is becoming one of the most important issues facing local and 
state criminal justice agencies and that BJA must be responsive to 
their needs.
    Second, some grantees are using Serious and Violent Offender Re-
Entry Initiative funds, better known as ``re-entry,'' to improve the 
transition that people with mental illness make from prison to the 
community.
    Third, BJA is currently developing a strategic plan to support the 
efforts of law enforcement, corrections, and courts in dealing with 
individuals with mental illness. In fact, earlier this month, a group 
of court and mental health experts met to develop recommendations to 
BJA on what activities we and our federal partners could undertake to 
support court-based efforts to better address defendants with mental 
illness.
    Increasing collaboration between criminal justice and mental health 
agencies is essential at the state and local levels, as well as at the 
federal level. We are coordinating our efforts with SAMHSA, 
particularly with regard to their Targeted Capacity Expansion (TCE) 
Grants for Jail Diversion Programs. While the programs are similar in 
nature, SAMHSA is providing grants for pre- and post-booking diversions 
that do not involve continuous judicial oversight, treatment, and case 
disposition. BJA is funding models that provide continuous judicial 
oversight and intensive case management, ensuring that offenders remain 
accountable throughout the process. Our cooperative efforts with SAMHSA 
will also help ensure that the federal government does not fund 
overlapping grant programs.
    In addition, the technical assistance providers for both agencies' 
programs, the Council of State Governments and the TAPA Center for Jail 
Diversion (part of the GAINS Center funded by DOJ and SAMHSA), are 
working closely to coordinate their efforts. These organizations meet 
quarterly and are working together on a number of key issues, including 
promoting judicial leadership and better understanding the fiscal 
impact of mental illness in the justice system.
    This coordination helps us maximize the value of each agency's 
grant program. Furthermore, this collaboration enables us to leverage 
each agency's resources, expertise, and credibility with our respective 
constituencies in state and local governments. Most important, it 
allows us to demonstrate to state and local governments that the 
collaboration between mental health and criminal justice agencies is 
not only possible, but extremely valuable.
    And, BJA is working with SAMHSA to implement the policies 
identified in the July 2003 report of the President's New Freedom 
Commission on Mental Health to maximize the utility of existing 
resources, improve coordination of treatments and services, and promote 
successful community integration for adults with a serious mental 
illness.
    Mr. Chairman, from my work at OJP I have come to believe that the 
increasing number of people with mental illness in the criminal justice 
system is one of the most pressing issues facing our police 
departments, jails, prisons, and courts. State and county governments 
have demonstrated that thoughtful policies and programs can be 
developed to address this problem. The federal partners are committed 
to doing all we can to support practitioners through our grant programs 
and technical assistance.
    We very much appreciate the interest you and your colleagues have 
shown in this critical issue. I welcome the opportunity to answer any 
questions that you may have.

    Mr. Coble. Sheriff Sexton.

 TESTIMONY OF TED SEXTON, SHERIFF, TUSCALOOSA COUNTY SHERIFF'S 
                     OFFICE, TUSCALOOSA, AL

    Mr. Sexton. Mr. Chairman, my name is Ted Sexton and I am 
the Sheriff of Tuscaloosa County. I serve on the Executive 
Committee and Board of Directors of the National Sheriffs 
Association. I appreciate the opportunity to share with you 
some thoughts from NSA and the larger enforcement community on 
the need for S. 1994, the ``Mentally Ill Offender Treatment and 
Crime Reduction Act'' now under consideration by this 
Committee. Before I begin, let me say that we strongly 
supported S. 1194, which passed the United States Senate 
unanimously and welcome these hearings in the House.
    Most of the people suffering mental illness with whom law 
enforcement officers interact are non-violent, low-level 
offenders who are demonstrating signs of untreated mental 
illness in public. For the most part, these individuals pose a 
low risk of harming others, but act inappropriately enough to 
cause members of their community to be concerned. Many of the 
calls my office receives are actually placed by family members 
who are seeking law enforcement help to control behavior of 
someone who is off their medication.
    It is clear that without proper training on how to respond 
to these individuals, law enforcement may not be able to 
appropriately handle the situation. These contacts have a great 
potential for rapid escalation of both threat and force. Minor 
situations can easily escalate into a violent confrontation 
that jeopardizes the safety of both officers and the 
individual.
    In many circumstances, arresting the mentally ill 
individual is an inappropriate response, even if the officer 
believes that arresting the individual for a criminal charge is 
appropriate under the circumstances. County jails are not 
equipped to house a large number of mentally ill offenders. 
Jails are jails. They are not treatment facilities nor are they 
hospitals. Jails ought not to be the treatment option of first 
resort, but sadly, they have become just that because there is 
nothing else readily available.
    In my own community, we have seen a steady rise in the 
number of calls related to mentally ill individuals. This rise 
in calls for response has largely corresponded to the decline 
in population of large institutions within my community that 
have traditionally provided services to the mentally ill. As 
these individuals have been moved from an institutional setting 
to community based programs, we have seen a rise in the number 
of contacts that officers have with them.
    In response to the increased frequency in calls for service 
relating to this particular population of our community, my 
senior staff and I set out to develop a program within our 
office that trains officers to more effectively deal with 
mentally ill individuals. The training program provides 
officers with a better understanding of mental health issues 
and provides a number of suggested options other than arrest.
    The training is not limited to patrol officers who are most 
likely to come in contact with mentally ill individuals, but 
also includes dispatch officers who field the calls for 
service. In addition, we provide the training to other law 
enforcement agencies, fire/rescue squads, EMTs, and our 
volunteer fire departments. Last year, the training program was 
presented to more than 100 officers from various agencies, and 
currently there are more than 180 officers scheduled to receive 
the training. The Alabama Peace Officers Standards and Training 
Commission has recently established this program as a pilot for 
eventual State-wide implementation.
    Providing this training to law enforcement officers is a 
critically important element of providing service to the 
mentally ill in our community, but it is only one of the 
elements. Providing meaningful alternatives to incarceration is 
another equally critical component. As things stand now, the 
officer in the field is often left to choose between the 
unappealing alternatives of locking up the mentally ill 
individual or leaving them on the scene. Right now, there is 
very little middle ground and no real other options.
    The problems with these choices are obvious. Simply leaving 
the individual at the scene is unacceptable and serves neither 
the sick individual nor the public. Taking these individuals to 
jail, however, is often just as problematic. County jails are 
not equipped to handle mentally ill individuals. There is 
limited space in which to house these individuals apart from 
the general population at the jail.
    Of course, they are in jail because they were causing 
problems outside. Their offensive behavior does not magically 
improve in the jail setting. In fact, behavior often 
deteriorates in jail. Conflicts with other detainees or the 
inability to follow the rules of the facility often escalate 
into situations that threaten the safety of an officer or the 
individual.
    Providing medical care for these individuals in a jail 
setting is a tremendous concern, as well. Tuscaloosa County 
houses approximately 600 inmates. At any given time, roughly 10 
percent of the jail population is on some sort of psychotropic 
medication. The vast majority of those are on multiple 
medications. In the final quarter of last year, the cost of 
those medications cost my office and the taxpayers of 
Tuscaloosa almost $75,000. Additional costs are incurred 
because the staff of the jail has to be extra vigilant in 
monitoring mentally ill individuals. Frequently, they are on 
suicide watch, which requires additional detention officers to 
monitor them, thus increasing manpower needs.
    A mentally ill person in jail receives very basic and 
limited mental health assistance. I would hesitate to call it 
treatment. The fact is, they receive far less mental health 
care than they need and are subsequently released back into 
society without either a safety net or a system in place to 
ensure compliance with a treatment plan. Frequently, the cycle 
is repeated over and over again. The mentally ill are being 
arrested after they have failed to keep up the prescribed 
medication regime.
    The still unresolved problem for us, as for virtually all 
sheriffs' offices across the country, is finding an alternative 
placement for those individuals for whom jail is not 
appropriate. As I said earlier, the jail is not designed nor 
equipped to provide treatment for mentally ill. Jails are 
designed for holding those individuals awaiting trial or 
incarceration of those serving sentences and should not be 
viewed as an alternative treatment facility for mentally ill. 
For those who do require incarceration, placing them in the 
appropriate setting will help minimize the time that they 
actually spend in custody.
    Additionally, a system for monitoring these individuals 
once they are released from jail is also needed to ensure that 
we can break the cycle I have outlined. It is a disservice to 
everyone involved if we cannot arrange some more appropriate 
treatment than locking up the mentally ill in jail.
    For our part in Tuscaloosa, we are partnering with mental 
health professionals within our community to try to address 
these issues and we believe that H.R. 2387 will provide the 
resources and guidance we need to develop and implement 
creative solutions. Thank you.
    Mr. Coble. Thank you, Sheriff.
    [The prepared statement of Mr. Sexton follows:]

                Prepared Statement of Sheriff Ted Sexton

    Mr. Chairman, my name is Ted Sexton, and I am the Sheriff of 
Tuscaloosa County, Alabama. I serve on the Executive Committee and 
Board of Directors of the National Sheriffs' Association where I am the 
incoming First Vice President. I appreciate the opportunity to share 
with you some thoughts from NSA and the larger law enforcement 
community on the need for S. 1194, the Mentally Ill Offender Treatment 
and Crime Reduction Act now under consideration by this committee. 
Before I begin, let me say that we strongly support S. 1194, which 
passed the U.S. Senate unanimously and welcome these hearings in the 
House.
    Most of the people suffering mental illnesses with whom law 
enforcement officers interact are non-violent, low-level offenders who 
are demonstrating signs of untreated mental illness in public. For the 
most part, these individuals pose a low risk of harming others, but act 
inappropriately enough to cause members of the community to be 
concerned. Many of the calls my office receives are actually placed by 
family members who are seeking law enforcement help to control the 
behavior of someone who is ``off their medication.''
    It is clear that without proper training on how to respond to these 
individuals, law enforcement officers may not be able to appropriately 
handle the situation. These contacts have a great potential for rapid 
escalation of both threat and force. Minor situations can easily 
escalate into a violent confrontation that jeopardizes the safety of 
both the officers and the individual.
    In many circumstances, arresting the mentally ill individual is an 
inappropriate response. Even if the officer believes that arresting the 
individual for a criminal charge is appropriate under the 
circumstances, county jails are not equipped to house a large number of 
mentally ill offenders. Jails are jails; they are not treatment 
facilities nor are they hospitals. Jails ought not be the treatment 
option of first resort, but sadly they have become just that because 
there is nothing else readily available.
    In my own community, we have seen a steady rise in the number of 
calls related to mentally ill individuals. This rise in the calls for 
response has largely corresponded to the decline in the population of 
large institutions within my community that have traditionally provided 
services to the mentally ill. As these individuals have been moved from 
an institutional setting to community-based programs, we have seen a 
rise in the number of contacts that officers have with them.
    In response to the increased frequency in calls for service 
relating to this particular population of our community, my senior 
staff and I set out to develop a program within our office that trains 
officers to more effectively deal with mentally ill individuals. The 
training program provides officers with a better understanding of 
mental health issues, and provides a number of suggested options other 
than arrest. The training is not limited to patrol officers who are 
most likely to come in contact with mentally ill individuals, but also 
includes our dispatch officers who field the calls for service. In 
addition, we provide the training to other law enforcement agencies, 
fire/rescue squads, EMTs, and our volunteer fire departments. Last 
year, the training program was presented to more than 100 officers from 
the various agencies last year and currently, there are more than 180 
officers scheduled to receive the training. The Alabama Peace Officers 
Standards and Training Commission has recently established this program 
as a pilot program for eventual statewide implementation.
    Providing this training to law enforcement officers is a critically 
important element of providing service to the mentally ill in our 
community; but it is only one of the elements. Providing meaningful 
alternatives to incarceration is another, equally critical component. 
As things stand now, the officer in the field is often left to choose 
between the unappealing alternatives of locking up a mentally ill 
individual or leaving them on the scene. Right now, there is very 
little middle ground and no real other options.
    The problems with these choices are obvious. Simply leaving the 
individual at the scene is unacceptable and serves neither the sick 
individual nor the public. Taking these individuals to jail, however, 
is often just as problematic. County jails are not equipped to handle 
mentally ill individuals. There is limited space in which to house 
these individuals apart from the general population at the jail. Of 
course, they are in jail because they were causing problems on the 
outside. Their offensive behavior doesn't magically improve in the jail 
setting. In fact, behavior often deteriorates in jail. Conflicts with 
other detainees or the inability to follow the rules of the facility 
often escalate into situations that threaten the safety of an officer 
or the individual.
    Providing medical care for these individuals in a jail setting is a 
tremendous concern as well. The Tuscaloosa County Jail houses 
approximately 600 inmates. At any given time, roughly 10 per cent of 
the jail population is on some type of psychotropic medication. The 
vast majority of those are on multiple medications. In the final 
quarter of last year, the cost of those medications cost my office and 
the taxpayers of Tuscaloosa almost $75,000. Additional costs are 
incurred because the staff at the jail has to be extra vigilant in 
monitoring mentally ill individuals. Frequently they are on suicide 
watch, which requires additional detention officers to monitor them, 
thus increasing manpower needs and costs.
    A mentally ill person in jail receives very basic and limited 
mental health ``assistance''. I would hesitate to call it treatment. 
The fact is that they receive far less mental health care than they 
need and are subsequently released back into society without either a 
safety net or a system in place to ensure compliance with a treatment 
plan. Frequently, the cycle is simply repeated over and over again with 
the mentally ill being arrested after they have failed to keep up with 
their prescribed medication regimen.
    The still unresolved problem for us, as for virtually all Sheriff(s 
Offices across the country, is finding an alternative placement for 
those individuals for whom jail is not appropriate. As I said earlier, 
the jail is not designed nor equipped to provide treatment for the 
mentally ill. Jails are designed for the holding of individuals 
awaiting trial or incarceration of those serving sentences and should 
not be viewed as an alternative treatment facility for the mentally 
ill. For those who do require incarceration, placing them in an 
appropriate setting will help minimize the time that they actually 
spend in custody. Additionally, a system for monitoring these 
individuals once they are released from jail is also needed to ensure 
that we can break the cycle I've outlined. It is a disservice to 
everyone involved if we cannot arrange some more appropriate treatment 
than locking up the mentally ill in jail.
    For our part in Tuscaloosa, we are partnering with mental health 
professionals within our community to try to address these issues, and 
we believe that HR 2387 will provide the resources and guidance we need 
to develop and implement creative solutions to this chronic problem.
    Mr. Chairman, I am ready to take your questions and I look forward 
to working with you to address this issue in a way that is helpful to 
the mentally ill and provides them with the treatment and services that 
they need.

    Mr. Coble. I failed to mention earlier, folks, your entire 
statements will be made a part of the record.
    Dr. Monahan.

   TESTIMONY OF JOHN MONAHAN, Ph.D., HENRY AND GRACE DOHERTY 
    PROFESSOR OF LAW, UNIVERSITY OF VIRGINIA, AND DIRECTOR, 
   MACARTHUR RESEARCH NETWORK ON MANDATED COMMUNITY TREATMENT

    Mr. Monahan. Thank you, Chairman Coble, Congressman Scott, 
and Members of the Subcommittee for inviting me here this 
afternoon. In addition to my day job at the University of 
Virginia School of Law, I direct the Research Network on 
Mandated Community Treatment for the MacArthur Foundation. The 
network is now engaged in a partnership with the National 
Institute of Justice to evaluate seven of the Mental Health 
Courts funded by Congress 2 years ago that Mr. Scott mentioned.
    I will begin with the bottom line. The ``Mentally Ill 
Offender Treatment and Crime Reduction Act'' is the most 
evidence-based piece of Federal legislation on mentally ill 
offenders that I have seen in my 30 years as a researcher in 
this field.
    I say this for five reasons. First, the evidence is that 
the number of people this Act will affect is staggering. As you 
mentioned early on, Mr. Chair, 16 percent of adults in contact 
with the justice system are estimated to be mentally ill. This 
means that on any given day in the United States, there are 
over 200,000 prison inmates, 100,000 jail detainees, and 
700,000 people under the supervision of community corrections--
over one million people in all--with a serious mental illness. 
Three-quarters of these mentally ill people also have a co-
occurring substance abuse disorder.
    Women in the justice system have nearly twice the rate of 
mental illness as the male, but only one-third of the men and 
one-quarter of the women with a mental illness in jail report 
receiving any treatment for that mental illness while they were 
in jail.
    Another piece of evidence about the magnitude of this 
problem is the large number of communities that have taken it 
upon themselves to do something about people with mental 
illness in the justice system. The number of Mental Health 
Courts in the United States has mushroomed from one in 1997, to 
a dozen in 2002, to close to 100 this month.
    By the most recent count, there are almost 300 jail 
diversion programs now operating in the United States. This 
means that 7 percent of all counties have a police or a court-
based program to divert defendants with a mental illness from 
jail. This also means that 93 percent of all counties are 
without any program to keep non-violent defendants with a 
mental illness from crowding their jails and from committing 
more crime.
    Second, the evidence is that we can make a difference. 
Offenders with a mental illness can, in fact, be dealt with in 
ways that can reduce crime, save taxpayers money, or both.
    In terms of crime reduction, consider the MacArthur 
Violence Risk Assessment Study of over 1,000 people who have 
been hospitalized for mental illness, about half of whom had a 
prior contact with the criminal justice system. Now, the people 
who received no medication or therapy in the community after 
they get out of the hospital, 14 percent soon committed a 
violent act. Of the people who received an inadequate amount of 
treatment, about one treatment session a month, the violence 
rate was reduced from 14 percent to about 9 percent. But of the 
people who received the amount of treatment that they needed, 
about one session a week, the violence rate went from 14 
percent to less than 3 percent. Amazingly enough, the people 
with mental illness who were receiving adequate treatment in 
the community were actually less violent than their neighbors 
who were not mental illness at all.
    In terms of saving taxpayer money, consider the pioneering 
Broward County, Florida, Mental Health Court. Compared to a 
nearby county without a Mental Health Court, the Broward 
defendants are twice as likely to actually receive service for 
their mental illness and are no more likely to commit a new 
crime, despite the fact that the number of days they spent in 
jail is reduced by 75 percent, at enormous savings to the 
public.
    Third, the evidence is that one size does not fit all in 
terms of effectively dealing with mentally ill offenders. This 
Act is remarkably adaptable to local conditions in the 
pragmatic approach it takes to mentally ill offenders. Funded 
programs may include pretrial diversion in one jurisdiction, a 
Mental Health Court in another, a reentry program from jail or 
prison in a third, and some combination of these options in a 
fourth jurisdiction.
    Fourth, the evidence is that collaboration is essential to 
get anything accomplished having to do with mentally ill 
offenders. As the Council on State Government's Criminal 
Justice/Mental Health Consensus Project concluded after 5 years 
of intensive study, and as Ms. Nolan just noted, neither mental 
health nor criminal justice can do the job alone. This Act 
creates powerful incentives for cooperation between the 
Department of Justice and the Department of Health and Human 
Services and among agencies at the Federal, State, and local 
levels. Crime and mental illness deeply affect all of our 
communities, and perhaps for this reason, the turf battles that 
doom many reform efforts seem to have been carefully avoided in 
drafting this Act.
    Finally, the evidence is that we need more evidence. We 
know a lot about how to deal with mentally ill offenders, 
vastly more than we knew even 5 years ago. But by no means do 
we know all we need to state with confidence what the best 
practices are for dealing with different kinds of mentally ill 
offenders in different kinds of American communities. By 
imposing strict requirements for objective assessments of the 
measurable outcomes of the programs that are implemented with 
its funds, the Act will generate a self-correcting body of 
knowledge that uses findings about the effectiveness of past 
practice to shape improvements in future practice.
    As Sheriff Sexton noted, the Act was born of the 
frustration of criminal justice officials in seeing ever more 
people with mental illness further crowd the already 
overcrowded jails, rarely receive the mental health treatment 
that they so plainly need, and continue to appear before them 
for the commission of yet another crime. The Act before you can 
set State and local governments on a course to put a stop to 
this revolving door.
    The evidence is there. I urge you to pass the ``Mentally 
Ill Offender Treatment and Crime Reduction Act''.
    Mr. Coble. Thank you, Doctor.
    [The prepared statement of Mr. Monahan follows:]

                   Prepared Statement of John Monahan

    Thank you, Chairman Coble and Congressman Scott, for inviting me to 
testify before you today. I am Dr. John Monahan, a psychologist, and I 
hold the Doherty Chair in Law at the University of Virginia, where I am 
also a Professor of Psychology and of Psychiatry. I have been involved 
in Federally-funded research on mentally ill offenders since the 
publication of my first book, Community Mental Health and the Criminal 
Justice System, in 1976. I currently direct the Research Network on 
Mandated Community Treatment for the John D. and Catherine T. MacArthur 
Foundation, which is concerned with how the criminal justice system can 
be used as ``leverage'' to get offenders with a mental disorder to 
accept treatment for their illness.\1\ The Network is now engaged in a 
productive partnership with the National Institute of Justice to 
evaluate seven of the mental health courts funded by Congress as part 
of the 2000 America's Law Enforcement and Mental Health Project Act.\2\
---------------------------------------------------------------------------
    \1\ A list of Network publications can be found at http://
macarthur.virginia.edu
    \2\ Redlich, A., Steadman, H., Monahan, J., Petrila, J., & Griffin, 
P. (in press). The second generation of mental health courts. 
Psychology, Public Policy, and Law.
---------------------------------------------------------------------------
    I will begin with the bottom line: the Mentally Ill Offender 
Treatment and Crime Reduction Act of 2003 is the most evidence-based 
piece of federal legislation on mentally ill offenders that I have seen 
in 30 years as a researcher in this field. I say this for five reasons.

       FIRST, THE EVIDENCE IS THAT THE NUMBER OF PEOPLE THIS ACT 
                       WILL AFFECT IS STAGGERING.

    In its initial finding, the Act notes that the Bureau of Justice 
Statistics, using a broad definition of mental illness, concludes that 
over 16 percent of adults in contact with the justice system are 
mentally ill. This means that on any given day in the United States, 
there would be over 200,000 prison inmates, 100,000 jail detainees, and 
700,000 people under the supervision of community corrections--over one 
million people in all--with a serious mental illness. Three-quarters of 
these mentally ill people also have a co-occurring substance abuse 
disorder.\3\ Women in the justice system have nearly twice the rate of 
mental illness as men.\4\ But only one-third of the men and one-quarter 
of the women with a mental illness in jail report receiving any 
treatment while they were detained.\5\
---------------------------------------------------------------------------
    \3\ Abram, K., & Teplin, L. (1991). Co-occurring disorders among 
mentally ill jail detainees. American Psychologist, 46, 1036-1045.
    \4\ National GAINS Center. (2002). The prevalence of co-occurring 
mental illness and substance abuse disorders in the justice 
system.Delmar, NY: GAINS Center.
    \5\ Massaro, J. (2004). Working with people with mental illness 
involved in the criminal justice system: What mental health service 
providers need to know (2nd ed.). Delmar, NY: TAPA Center for Jail 
Diversion.
---------------------------------------------------------------------------
    Another piece of evidence about the magnitude of the problem that 
the Act addresses is the large number of communities that have taken it 
upon themselves to do something about people with mental illness in the 
justice system. The number of mental health courts in the United States 
has mushroomed from one in 1997, to a dozen in 2002, to close to 100 
this month.\6\ By the most recent count, there are almost 300 jail 
diversion programs now operating in the United States.\7\ This means 
that 7 percent of all counties have a police or court-based program to 
divert defendants with a mental illness from jail.\8\ This also means 
that 93 percent of all counties are without any program to keep non-
violent defendants with a mental illness from crowding their jails and 
committing more crime.
---------------------------------------------------------------------------
    \6\ Survey of Mental Health Courts. (2004). Available at http://
www.mentalhealthcourtsurvey.com
    \7\ TAPA Center for Jail Diversion. (2004). What can we say about 
the effectiveness of jail diversion programs for persons with co-
occurring disorders? Available at http://www.gainsctr.com/pdfs/tapa/
WhatCanWeSay.pdf
    \8\ Steadman, H. (2004). A national perspective on diversion and 
linkage to community-based services. Available at http://
www.gainsctr.com/ppt/NationalPerspectiveon DiversionanLinkage.ppt
---------------------------------------------------------------------------
SECOND, THE EVIDENCE IS THAT WE CAN MAKE A DIFFERENCE: OFFENDERS WITH A 
  MENTAL ILLNESS CAN IN FACT BE DEALT WITH IN WAYS THAT REDUCE CRIME, 
                    SAVE TAXPAYERS' MONEY, OR BOTH.

    In terms of crime reduction, consider the macarthur violence risk 
Assessment Study of over 1,000 people who had been hospitalized for 
mental illness, about half of whom had a prior contact with the 
criminal justice system.\9\ Of the people who received no medication or 
therapy in the community after they got out of the hospital, 14 percent 
soon committed a violent act. Of the people who received an inadequate 
amount of treatment--about one treatment session a month--the violence 
rate was reduced from 14 percent to about 9 percent. But of the people 
who received the amount of treatment that they needed--about one 
session a week--the violence rate went from 14 percent to less than 3 
percent. Amazingly enough, the people with a mental illness who were 
receiving adequate treatment were actually less violent than their 
neighbors in the community who were not mental ill.
---------------------------------------------------------------------------
    \9\ Monahan, J., Steadman, H., Silver, E., Appelbaum, P., Robbins, 
P., Mulvey, E., Roth, L., Grisso, T., & Banks, S. (2001). Rethinking 
risk assessment: The MacArthur study of mental disorder and violence. 
New York: Oxford University Press.
---------------------------------------------------------------------------
    In terms of saving taxpayers' money, consider the pioneering 
Broward County (Ft. Lauderdale), Florida, Mental Health Court, whose 
rigorous evaluation is also being supported by the MacArthur 
Foundation. This court presents mentally ill misdemeanor defendants 
with the choice of accepting mental health treatment in the community, 
or having their cases processed in the business-as-usual way, which may 
well mean jail time. Perhaps not surprisingly, 95 percent of the 
defendants given this option choose treatment. Compared to a nearby 
county without a mental health court, the Broward defendants are twice 
as likely to actually receive services for their mental illness \10\ 
and are no more likely to commit a new crime, despite the fact that the 
number of days they spend in jail for the current offense is reduced by 
75 percent, at enormous savings to the public.\11\ While the NIJ/
MacArthur-funded evaluation of mental health courts receiving federal 
grants is still in progress, the Broward study demonstrates that courts 
have a central role to play in responding to people with mental illness 
in the justice system.
---------------------------------------------------------------------------
    \10\ Boothroyd, R., Poythress, N., McGaha, A., & Petrila, J. 
(2003). The Broward Mental Health Court: Process, outcomes, and service 
utilization. International Journal of Law and Psychiatry, 26, 55-71.
    \11\ Cristy, A., Poythress, N., Boothroyd, R., Petrila, J., & 
Mehra, S. (submitted for publication). Evaluating the efficiency and 
community safety goals of the Broward County Mental Health Court.
---------------------------------------------------------------------------
   THIRD, THE EVIDENCE IS THAT ONE SIZE DOES NOT FIT ALL IN TERMS OF 
            EFFECTIVELY DEALING WITH MENTALLY ILL OFFENDERS.

    ``First and foremost,'' leading researchers have concluded, ``it 
must be clear that there is no one best way to organize a program [of 
diverting mentally ill offenders from jail]. An approach that works in 
one community may not be practical somewhere else.'' \12\
---------------------------------------------------------------------------
    \12\ Morris, S. & Steadman, H.J. (1994). Keys to successfully 
diverting mentally ill jail detainees. American Jails, July/August, 47-
49.
---------------------------------------------------------------------------
    The Act is remarkably adaptable to local conditions in the 
programmatic approach it takes to mentally ill offenders. Funded 
programs may include pre-trial diversion in one jurisdiction, a mental 
health court in another, a re-entry program from jail or prison in a 
third, or some combination of these options in a fourth.
    What Justice Brandeis wrote in 1932 and the Supreme Court has 
quoted on three dozen subsequent occasions is true today. ``It is one 
of the happy incidents of the federal system that a single courageous 
state may, if its citizens choose, serve as a laboratory; and try novel 
. . . experiments without risk to the rest of the country.'' This Act 
is one of those happy incidents.

FOURTH, THE EVIDENCE IS THAT COLLABORATION IS ESSENTIAL TO GET ANYTHING 
         ACCOMPLISHED HAVING TO DO WITH MENTALLY ILL OFFENDERS.

    Neither mental health nor criminal justice can do the job alone. 
This Act incentivizes cooperation between the Department of Justice and 
the Department of Health and Human Services, and among agencies at the 
federal, state, and local levels. Crime and mental illness deeply 
affect all of our communities, and perhaps for this reason the turf 
battles and the narrow single-issue concerns that doom many reform 
efforts seem to have been carefully avoided in drafting this Act.
    As the Council of State Government's Criminal Justice/Mental Health 
Consensus Project concluded after five years of intensive study: \13\
---------------------------------------------------------------------------
    \13\ Council of State Governments. (2002). Criminal Justice/Mental 
Health Consensus Project. Available at www.consensusproject.org
---------------------------------------------------------------------------
    The single most significant common denominator shared among 
communities that have successfully improved the criminal justice and 
mental health systems' response to people with mental illness is that 
each started with some degree of cooperation between at least two key 
stakeholders--one from the criminal justice system and the other from 
the mental health system (p. xx).

          FINALLY, THE EVIDENCE IS THAT WE NEED MORE EVIDENCE.

    We know a lot about how to deal effectively with mentally ill 
offenders--vastly more than we knew even five years ago. But by no 
means do we know all we need to state with confidence what the ``best 
practices'' are for dealing with different kinds of adult and juvenile 
mentally ill offenders in different kinds of American communities. By 
imposing strict requirements for objective assessments of the 
measurable outcomes of the programs that are implemented with its 
funds, the Act will generate a self-correcting body of knowledge that 
uses findings about the effectiveness of past practice to shape 
improvements in future practice. In mandating empirical evidence of 
program performance, the Act avoids simply throwing money at a problem. 
Instead, it assigns accountability and it demands results.
    The Act was born of the frustration of criminal justice officials 
in seeing ever more people with mental illness further crowd their 
already over-crowded jails, rarely receive the mental health treatment 
that they so plainly need, and continue to appear before them for the 
commission of yet another crime. The Act before you can set state and 
local governments on a course to put a stop to this revolving door.
    The evidence is there. I urge you to pass Mentally Ill Offender 
Treatment and Crime Reduction Act of 2003.

    Mr. Coble. Mrs. Poe.

TESTIMONY OF JUNE P. POE, PAST PRESIDENT, NATIONAL ALLIANCE FOR 
 THE MENTALLY ILL OF ROANOKE VALLEY, ROANOKE, VA, ON BEHALF OF 
           THE NATIONAL ALLIANCE FOR THE MENTALLY ILL

    Mrs. Poe. Thank you, Chairman Coble, Representative Scott, 
and other distinguished Members of the Committee for this 
opportunity to speak to you on the importance of S. 1194. I 
also thank my representative, Congressman Goodlatte, for being 
here, and also thank Congressman Strickland for his leadership 
on the issues that we are discussing today.
    I am June Poe from Roanoke, Virginia, and I have one of my 
five children who suffers from severe mental illness. I have 
worked in the field of psychiatry as a Licensed Clinical Social 
Worker and my husband was a physician. My family has 
experienced the heartbreaking lack of vital services needed to 
help prevent unnecessary contacts of people with mental 
illnesses with the criminal justice system.
    I am also pleased to be here today to testify on behalf of 
NAMI, the National Alliance for the Mentally Ill, and at the 
outset, I would also like to recognize the support of the 
Campaign for Mental Health Reform, representing the broad 
mental health community for S. 1194.
    You have heard these distinguished witnesses. Now, my son 
and I want to put a human face on this bill. In 1974, John, a 
brilliant student and athlete, suffered his first psychotic 
break as an 18-year-old freshman at Wake Forest University. He 
was diagnosed with paranoid schizophrenia. For the next 12 
years, he struggled courageously to try to continue his 
education and employment as he dealt with the pain of his 
chronic severe mental illness. He was hospitalized nine times 
and received some community mental health services, but in 
those days, the 1970's and 1980's, psychiatric treatment and 
services for people with severe mental illness was still in the 
dark ages.
    In 1987, unfortunately, he stopped taking his medication 
and we finally had to call the police because we did not feel 
safe due to his psychotic behavior. He was arrested and jailed 
for breaking and entering our home, destroying property. My 
husband and I were very well educated about medicine and the 
mental health system. We sought help from every possible 
source. Despite this, John had to suffer the horrible 
experience of being locked up in jail and treated as a 
criminal. He was becoming sicker without treatment.
    The darkest day in my memory was that day when I realized 
that the court did not have the ability to provide him the help 
he desperately needed. A felony conviction was the worst thing 
that could have happened to him. Physicians take an oath of 
``do no harm.'' Lawyers should take the same oath. The judge 
sent him back to jail with no other than an admonition to take 
his medication. John was not able to comply because of his 
mental illness. When John was psychotic, he did not know he was 
sick.
    The horrendous manner in which my son's case was handled 
demonstrates the profound need for education and cross-training 
of criminal justice and mental health personnel. Most of the 
individuals involved in my son's case at that time had no 
knowledge about schizophrenia, its symptoms, and its 
treatments, and there was no system in place for coordinating 
services between the criminal justice and mental health.
    The story gets worse. While in jail, John's condition 
continued to deteriorate. After his release from jail, the 
mental health professionals could not make him take his 
medications. He was jailed two more times. Having to call the 
police about your own child and then visiting him in jail is an 
agony that I pray no one in this room will ever have to endure.
    John's incarcerations only made his psychiatric symptoms 
worse and we could do nothing to help him. The services he 
needed to recover were not available.
    Finally, in 1990, a gifted probation officer and mental 
health professional helped my son begin a tortuous journey back 
to recovery. The road has not been smooth. John was 
hospitalized on three more occasions and even attempted to 
commit suicide. Throughout the 1990's, John had periods when he 
was able to maintain a degree of independence and periods when 
he was very ill and symptomatic.
    In 2001, John again stopped taking his medication and 
became psychotic. He had a paranoid delusion that neighbors 
were harming their dogs, so he opened the gate and let them 
escape from being hurt by their owners and the owners wanted to 
call the police and have him arrested. This time the Assertive 
Community Treatment, the PACT team, intervened and prevented 
his arrest and incarceration. With this excellent, intensive 
community care he is now back on medication, has an 
understanding of his illness, and is stabilized. Unfortunately, 
these high-quality mental health services and supports are not 
available to most people.
    I am excited about the purpose of S. 1194, to foster local 
collaborations. In our Roanoke Valley, we have developed 
collaborations for providing better services for people like 
John who need treatment, not punishment. The only thing lacking 
are resources to implement our ideas and our plans. S. 1194, if 
enacted, will provide the needed resources.
    In conclusion, I strongly urge passage of S. 1194, a bill 
that will greatly benefit both people with serious mental 
illnesses and entire communities. In 1974, John, a brilliant 
young freshman at Wake Forest University, suffered paranoid 
schizophrenia. In 1987, he was cast away by the criminal 
justice system. Today, at age 48, John, instead of being 
incarcerated as a criminal, is living independently in the 
community. He is truly a courageous survivor.
    I have asked permission to read a very short statement that 
he asked me to read to you. ``Thank you for this opportunity to 
testify why I support S. 1194. I am John Poe, June Poe's son. I 
am mentally ill and have been sent to jail on two misdemeanors 
and one felony, non-violent and non-drug abuse crimes. If the 
Mental Health Court and the PACT team had been in effect at 
that time, it would have made my life more comfortable. Jail is 
a very bad place for people with mental health. People with 
mental health cannot get proper treatment in jail. I urge you 
to vote for this bill. Signed, John Poe.''
    Thank you for giving me the opportunity to testify.
    Mr. Coble. Thank you, Ms. Poe. You indicated John was a 
courageous young man. I think his mom is a pretty courageous 
person in her own right.
    Mrs. Poe. And I have three of my children back here who are 
courageous, too.
    Mr. Coble. It is good to have all of you in the audience 
with us today.
    [The prepared statement of Mrs. Poe follows:]

                   Prepared Statement of June P. Poe

    Thank you, Chairman Coble, Representative Scott and other 
distinguished members of the Committee for this opportunity to speak to 
you on the importance of S. 1994, a bill that would foster 
collaborations to ensure that resources are effectively and efficiently 
used to develop alternatives to incarceration for individuals with 
mental illnesses charged with non-violent crimes.
    I am June P. Poe from Roanoke, Virginia, a widow with 5 children, 
one of whom suffers from severe mental illness. I have worked in the 
field of psychiatry as a Licensed Clinical Social Worker and my husband 
was a physician. My family has experienced the heartbreaking lack of 
vital services needed to help prevent unnecessary contacts of people 
with mental illnesses with the criminal justice system. My husband, 
until his death in 1994, and I have continued to fight for my son, 
John, and many others who fall between the cracks.
    I am pleased to be here today to testify on behalf of NAMI (the 
National Alliance for the Mentally Ill). At the outset, I would also 
like to recognize the support of the Campaign for Mental Health Reform 
for S. 1194. It is very important to note that the mental health 
community as a whole stands behind this bill.
    You will hear from the other distinguished witnesses how critical 
the problems are and what is needed to alleviate them. My son John and 
I want to put a human face on this bill. John has given me permission 
to tell this story. This is our story but we are not alone. I am 
speaking for many many families who have similar stories. In most 
cases, these stories would have been far happier had the services 
envisioned in S. 1194 been available to people like my son.
    In 1974, John, a member of the High School National Honor Society, 
former Captain of his High School Track team (voted most valuable 
member of that team), artist, and a brilliant freshman at Wake Forest 
University suffered his first psychotic break. He was diagnosed with 
paranoid schizophrenia. For the next 12 years he struggled courageously 
to try to continue his education, and employment as he dealt with the 
pain of his chronic severe mental illness. He was hospitalized nine 
times and received some community mental health services but these 
services were not adequate to keep him stabilized. He struggled with 
the side effects of the old medications. In those days (1970s and 
1980s) psychiatric treatment and services for people with severe mental 
illnesses were still in the dark ages. Our family has continued to give 
him love and support through it all.
    In 1987 unfortunately he stopped taking his medications and we 
finally had to call the police because we did not feel safe due to 
behaviors that were the product of his deteriorating psychiatric state. 
He was eventually arrested and jailed for breaking and entering our 
home at 5:30 AM and destroying property. John said ``I just wanted to 
get some sleep.'' The Commonwealth's attorney recommended a felony 
charge, explaining that this was the only way to get John treatment. My 
husband and I were very well educated about medicine and the mental 
health system. We had sought help from every possible source--judges, 
lawyers, and many mental health programs and mental health 
professionals. John had to suffer the horrible experience of being 
locked up in a jail and treated as a criminal. We suffered the painful 
agony and grief of visiting our son in jail. He was becoming sicker 
without medication and treatment. The Commonwealth's attorney and his 
assistant and even our own attorney (my cousin) did not know what to 
do.
    The darkest day in my memory was that day in court when I realized 
that the court did not have the ability to provide him the help he 
desperately needed. We had been advised that pleading guilty to a 
felony was the only way to get John treatment. In actuality, a felony 
conviction was the worst thing that could have happened to him. The 
judge sent him back to jail, with no treatment whatsoever, other than 
an admonition to take his medication. When the judge told my son to 
take his medication, he was not able to comply because of his mental 
illness. When John was psychotic he did not know he was sick.\1\
---------------------------------------------------------------------------
    \1\ Amador, Xavier, ``I'm Not Sick, I Don't Need Help'', Vida 
Press, revised 2004.
---------------------------------------------------------------------------
    The horrendous manner in which my son's case was handled 
demonstrates the profound need for education and cross training of 
criminal justice and mental health personnel. Most of the individuals 
involved in my son's case at the time had no knowledge about 
schizophrenia, its symptoms, and its treatments. And there was no 
system in place for coordinating services between criminal justice and 
mental health. I am very gratified that S. 1194 will allow communities 
to use available funds to provide the training necessary to ensure that 
those responding to individuals like my son in the future will be 
better prepared to do so in a humane and effective way.
    The story gets worse. While in jail, John's condition continued to 
deteriorate.
    For the next 3 years my son and the rest of our family went through 
hell. After his release from jail, the mental health professionals 
could not make him take or stay on his medications. The services he 
needed to recover, such as assertive community treatment, were not 
available.\2\
---------------------------------------------------------------------------
    \2\ Assertive community treatment programs are characterized by 
intensive, outreach-oriented services, available on a 24 hour, seven 
day a week basis, for people with severe and persistent mental 
illnesses who are at risk of hospitalizations. These programs have 
proven effectiveness in reducing involvement with criminal justice 
systems, homelessness and other adverse consequences of lack of 
treatment.
---------------------------------------------------------------------------
    We had to call the police again. Having to call the police about 
your own child, and then visiting him in jail is an agony that I pray 
no one in this room will ever have to endure. Research proves that 
people with severe mental illnesses get sicker when they do not get 
necessary medical treatment. We saw our son get sicker and could do 
nothing to help him. His incarcerations only made his psychiatric 
symptoms worse.
    Finally, in 1990, a gifted probation officer who is also a gifted 
mental health professional, helped my son get released from jail and 
begin his tortuous journey back to recovery. This is not to say that 
the road was smooth. John was hospitalized on several occasions and 
even attempted to commit suicide. Schizophrenia is a disease known to 
be episodic in nature. Throughout the 1990's, John had periods when he 
did quite well, and periods when he was very ill and symptomatic.
    In 2001 John again became psychotic when he stopped taking his 
medication. He had a paranoid delusion that neighbors were harming 
their dogs so he opened the gate and let them ``escape from being hurt 
by their owners''. After he had done this the third time the neighbors 
called the police and brought charges to have him arrested. This time 
his Assertive Community Treatment (PACT) team intervened and prevented 
his arrest and incarceration. With this excellent intensive community 
care he is now back on medication, has an understanding of his illness 
and need for medication and is stabilized. He has received excellent 
acute care at Catawba Hospital (our regional state psychiatric 
hospital) and excellent services through Blue Ridge Behavioral 
HealthCare (our regional community mental health services). I am 
grateful that mental health care is now available to prevent a repeat 
of the horror of those 3 years when he was in jail. Unfortunately, 
these high quality mental health services and supports are not 
available to most people.
    I am excited that the purpose of S. 1194 is to ``foster local 
collaborations'' which will ensure that resources are effectively and 
efficiently used to reduce the unnecessary incarceration of non-violent 
offenders with mental illnesses. In the Roanoke Valley, we have 
numerous examples of such collaborations. For example, in 2001, under 
the leadership of Police Chief Ray Lavender of Roanoke County, the 
County established a police Crisis Intervention Team (CIT) program, the 
first of its kind in the Commonwealth of Virginia. The Mental Health 
Association of Roanoke Valley and NAMI-Roanoke Valley worked closely 
with Chief Lavender in creating this important new program.
    In 2002, I, representing NAMI-Roanoke Valley, helped to establish a 
Task Force to better address the needs of people with mental illnesses 
who come into contact with the criminal justice system in the Valley. 
Its mission is to ``identify those issues inhibiting the effective 
delivery of services for offender populations with a mental illness and 
encourage the development and implementation of a continuum of 
community based care for persons with mental illness that will reduce 
the prevalence and incidence of offenders with mental illness within 
the criminal justice system.'' The Task Force members represent state 
and federal criminal justice professionals, (judges and probation 
officers in the 23 Judicial Circuit and District Courts and US Federal 
Court) public mental health professionals (the Medical Director of 
Catawba Hospital, Blue Ridge Behavioral Health staff) and advocates 
(NAMI-Roanoke Valley and the Mental Health Association of Roanoke 
Valley).
    Despite the severe cutbacks in mental health agencies and 
facilities and criminal justice systems due to the state budget crisis, 
this Task Force, in just its first year accomplished the following:

        <bullet>  Established communication between the professionals 
        (including judges) in the criminal justice system, mental 
        health agencies, and advocates, which previously did not exist 
        because they did not have a forum to communicate with each 
        other;

        <bullet>  Identified 11 issues and challenges inhibiting the 
        effective and efficient treatment of offenders who have mental 
        illness within the Roanoke Valley;

        <bullet>  Assessed current capabilities of mental health 
        agencies and facilities and criminal justice systems to 
        effectively respond to offenders who have mental illness and 
        avoid re-hospitalizations and re-incarcerations;

        <bullet>  Achieved some non-cost approaches to improve the 
        efficiency and effectiveness in responding to the needs of this 
        population;

        <bullet>  Developed coordination of services between jails, 
        mental health community agencies and hospitals;

        <bullet>  Eliminated duplication of services in the transition 
        of services from jail to community; and

        <bullet>  Provided training this past Spring, 2004, to more 
        than 60 attorneys, judges and probation officers about mental 
        health issues and treatment resources.

    In the Roanoke Valley we are well down the path of developing more 
humane and cost-effective responses to individuals with mental 
illnesses who, due to non-violent offenses, come into contact with 
criminal justice systems. The only thing lacking are resources to 
implement our ideas. S. 1194, if enacted, will provide communities like 
ours with opportunities to implement services to break the endless 
cycle of deterioration and arrests for people like my son, who are not 
criminals but desperately need treatment!
    In conclusion, I strongly urge passage of S. 1194, a bill that will 
greatly benefit both people with serious mental illnesses and entire 
communities. Jail diversion programs and community reentry services, 
coupled with comprehensive community mental health treatment such as 
PACT, are less expensive than a criminal justice system without 
treatment. The benefits are obvious. Today, my son, instead of being 
incarcerated as a criminal, is living independently in the community, 
volunteering weekly in the psychosocial rehabilitation program at 
Catawba Hospital, participating actively in treatment, and is well 
along the road to recovery. And, I once again feel safe, as do others 
in my family and community.
    In 1974, John, a brilliant young freshman at Wake Forest University 
suffered a biologically based brain disorder. In 1987, he was ``cast 
away'' by the criminal justice system. Now, John is truly a courageous 
survivor. He wrote the following statement urging the passage of S. 
1194. He asked me to read it to you.
                               __________
(Written statement of John Poe, read by June P. Poe).

    Thank you for this opportunity to testify why I support S. 1994.
    I am John Poe, June Poe's son. I am mentally ill and have been sent 
to jail for two misdemeanors and one felony, non-violent and non-drug 
abuse crimes.
    If the mental health court and PACT had been in effect at that time 
it would have made my life more comfortable. Jail is a very bad place 
for people with mental illness. People with mental illness cannot get 
proper treatment in jail.
    I urge you to vote for this Bill.

(signed: John Poe)
                               __________
    Thank you for giving me the opportunity to testify before you 
today.

    Mr. Coble. Folks, we impose the five minute rule against 
us, as well, so if you all could keep your answers tersely, we 
would be appreciative.
    Ms. Nolan, one of the criticisms of the Drug Court program 
is the lack of evaluation and the lack of reporting by the 
grantees. Is there any effort in the Mental Health Court 
program to require grantees to provide information for 
evaluations, and how is the program being evaluated? 
Furthermore, is there an effort to establish best practices for 
the grantees?
    Ms. Nolan. Yes, sir, yes, sir, and yes----
    Mr. Coble. It is a multi-faceted question. [Laughter.]
    Ms. Nolan. The quick answer to your question, sir, is yes 
to all the questions that you posed. The National Institute of 
Justice, a component of the Office of Justice Programs, is 
currently overseeing a process evaluation of all the currently 
funded sites. Following that, as was mentioned in the 
testimony, the MacArthur Treatment Foundation will be 
conducting an outcome evaluation of seven of the sites that we 
are funding.
    In addition, each one of the grantees on a semi-annual 
basis is required to report to us on various performance 
measures, both from the client standpoint and from the 
community's standpoint.
    Mr. Coble. I thank you.
    Sheriff, law enforcement officials must collaborate with 
mental health professionals to most effectively address the 
lack of treatment of mentally ill non-violent offenders. Have 
you experienced or do you anticipate any difficulties or 
impediments or road blocks in this collaborative effort?
    Mr. Sexton. No, sir.
    Mr. Coble. And you have had good experience with it?
    Mr. Sexton. Yes, sir.
    Mr. Coble. All right. When I said terse, I think they took 
me literally. [Laughter.]
    Mr. Coble. Dr. Monahan, according to your testimony, 95 
percent of defendants, when faced with the option of treatment 
or jail time for an active sentence--they choose treatment. In 
your opinion, should these defendants have that option, A, and 
why do you believe these individuals do not seek treatment on 
their own without court intervention? Is this generally the 
first treatment these individuals will be involved with?
    Mr. Monahan. Sir, many individuals who need mental health 
treatment oftentimes unfortunately don't avail themselves of 
it, sometimes because of the side effects of those treatments. 
I think that the 95 percent of the defendants in Broward who 
accept treatment do so in part because the criminal justice 
system is being used as leverage to get them into treatment. As 
I mentioned, they are no more likely to commit a crime if they 
are diverted from the criminal justice system. It saves the 
community 75 percent on jail days, and I think if you can 
either reduce the crime rate or keep the crime rate constant 
but drastically reduce the cost at no additional risk to the 
public, that sounds like a winning strategy to me.
    Mr. Coble. I thank you.
    Mrs. Poe, you mentioned in your testimony that the Roanoke 
Valley Task Force initially identified challenges inhibiting 
the effective and efficient treatment of mentally ill offenders 
within your community. Identifying these challenges and 
assessing current capabilities seems essential to developing a 
strategy to address the issue. During this phase, did you 
discover deficiencies inherent within the criminal justice 
system or the mental health community regarding the treatment 
of mentally ill offenders?
    Mrs. Poe. Yes, sir. In the mental health system, there was 
a strong--there was not enough money to provide for the 
services that were needed. Money was one issue.
    There are difficulties in the collaboration--well, there 
are difficulties with the criminal justice system in dealing 
with the issues of medication, serious problems there which we 
have been trying to address. The problems of having the 
appropriate medications that the doctor has, the psychiatrist 
has prescribed needs to be with that patient. They do not 
always get those medications in the jail. We have been working 
hard on trying to solve that problem.
    There is also a need for greater education of the people in 
the criminal justice system to understand what mental illnesses 
are. One of our groups, one of our projects has been to have an 
educational program where we trained this spring with 60 of the 
lawyers, the judges, and probation officers to begin to 
understand what mental illnesses are and what the medication 
issues are.
    Mr. Coble. I see my red light, but before I yield to Mr. 
Scott, let me ask you this question, Mrs. Poe. Is it your 
belief that the bill before us appropriately addresses these 
problems?
    Mrs. Poe. Yes. There is in education--in the bill, there is 
cross-training and education that is crucial. Money for the 
services are very important, but the collaboration, fostering 
the collaboration between the systems is of major importance. 
It is--one of the things we found was that until we had this 
task force, they weren't speaking to each other. Coming 
together, communicating with each other, they found out what 
their problems were and began to work on ways of solving those 
problems, that when we didn't have any money, we could still be 
a little bit more efficient in communicating on those problems.
    Mr. Coble. I thank you, and I will say to the gentleman 
from Virginia, I owe you a minute and 3 seconds. [Laughter.]
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Dr. Monahan, you went to great lengths to talk about the 
evaluation and research and importance in that. Is this 
something unusual in criminal justice legislation, to actually 
evaluate and study what you are doing before you do it?
    Mr. Monahan. Well, it is certainly not unheard of, sir, but 
I think it is unusual to have the emphasis on evaluation be so 
integral a part of the bill as it is a part of this bill. I 
think, ideally, people will learn from what they try in the 
beginning. They will see what works and doesn't work. They will 
do less of the former and more of the latter.
    Mr. Scott. Thank you, and I think that is something new. We 
don't usually do a lot of studying before we jump into it.
    Ms. Nolan, what are the costs involved in setting up a 
program?
    Ms. Nolan. It varies, sir. Funding is available currently 
through the Edward Burn Memorial Justice Assistance grant 
programs as one of the purpose areas that States can use to 
help fund start-up of Mental Health Courts. In addition, there 
are a number of jurisdictions that have been able to, through 
existing resources, been able to basically cobble together 
through existing resources some courts.
    As far as specific numbers as to the extent to which, at 
the low end, what courts may cost, and at the high end, I would 
be happy to try to get that information for you and back to 
you.
    Mr. Scott. Thank you. There are two parts of it. One is the 
administrative expense in setting up the court. You have got 
the set-up costs, administrative, if you have got to hire an 
administrator or a computer or a desk and that kind of thing, 
and they are ongoing administrative expenses. Also, if it is 
going to work, you have to have some services available for the 
defendants. Do the courts that you have funded have adequate 
services to refer the defendants to?
    Ms. Nolan. On those that I am familiar with, yes, there are 
adequate funds, but again, we are funding only some 
demonstration projects. My understanding of what is going to be 
offered under the pending legislation is that there will be 
planning and implementation grants so that jurisdictions will 
be able to determine really what their needs are going to be in 
that particular jurisdiction, what kind of funds will be 
needed.
    Mr. Scott. Because this is one of the problems. We have 
gone to community-based mental health rather than 
institutional-based mental health, and Sheriff Sexton has 
mentioned that some of his people run into people in the 
community that are not getting all of the services that they 
actually need. We run into this with juveniles occasionally. 
The only way they can get services is if you arrest them on 
something and then the court can provide the services.
    But it is your understanding that in these courts, there 
are adequate services available once someone gets into the 
system?
    Ms. Nolan. What I would like to focus on, sir, is the 
importance of the collaborative efforts that are involved in 
each of these Mental Health Courts, that it is not just a 
criminal justice problem, it is not just a mental health 
problem, but there are various systems with their resources 
that can all come together to help generate the resources that 
are needed.
    One thing that I have found under my leadership with the 
Serious and Violent Offender Reentry Initiative and the work 
with the other Federal agencies that I do, it is impossible for 
just one Government agency or one segment of the services that 
are provided to be able to do it alone. It is very important 
that we are able to leverage the resources that we have to be 
able to address the problem.
    Mr. Scott. It has been mentioned also that a lot of the 
defendants have, what did you call them, co-occurring problems, 
not only mental health but also substance abuse. Are they dealt 
with in this legislation?
    Ms. Nolan. I am sorry, sir, I don't know. I am not that 
familiar with the specifics of the legislation.
    Mr. Scott. Dr. Monahan, do you----
    Mr. Monahan. They are explicitly. Defendants with a mental 
disorder who also have a co-occurring secondary substance abuse 
disorder are indeed--can have programs for them funded under 
this legislation.
    Mr. Scott. Sheriff Sexton, if you don't arrest the mentally 
ill, what happens to them?
    Mr. Sexton. That is a great question. Oftentimes, it 
depends on what the family wants to do. Normally, the family 
calls us in order to try to get something done. It also depends 
on the economic status and well-being of the family at the 
time. But a majority of the times, unfortunately, the only 
option out there is arrest, so they end up coming into the 
facility. In our particular community with the program that we 
have now, we are using the local cooperative venture that we 
have, the collaborative effort to bring in local mental health, 
to channel that person to another mechanism.
    The problem comes, as Ms. Nolan mentioned, is when you have 
a felony, you are dealing with a felon. Virtually, there is no 
way to deal with the problem on the front end. It has to be 
dealt with at the back through a circuit judge. In those 
situations, we are somewhat limited, but again, the 
collaborative effort of this particular bill and the problem of 
the tennis game of batting the client back and forth between 
the agencies, I think everybody, at least in our community, has 
finally settled in to--and other communities is settling down 
on focusing the problem and solving it.
    Mr. Scott. Now, can they get that kind of effort going 
without an arrest?
    Mr. Sexton. Yes, sir.
    Mr. Scott. So they don't have to be arrested to get 
services?
    Mr. Sexton. No, sir. We have crisis intervention, suicide 
intervention, or get them to the local community mental health 
officials.
    Mr. Scott. Do you have sufficient mental health services to 
address the need in your community?
    Mr. Sexton. We are the mental health capital of Alabama. 
[Laughter.]
    Yes, sir, we have, and then we also serve several hospitals 
for the State. So yes, sir, we do.
    Mr. Scott. Ms. Nolan, is $150,000 enough to get these 
things going? Are there things that the programs are not doing 
because of insufficient funding?
    Ms. Nolan. If I may be able to get back with you, sir, with 
specific information regarding the sites that we are going to 
be doing specific evaluation of and see what their needs are, I 
would be happy to get back to you with that specific 
information. I do not have that with me right now.
    Mr. Scott. Mr. Chairman, I know Virginia doesn't spend as 
much for mental health as some other areas, but I am delighted 
to see that some don't have the funding problems that I believe 
we do in Virginia.
    Mr. Sexton. Mr. Scott, if I may, Alabama would be more than 
glad to accept grants---- [Laughter.]
    Let me not shortchange the State.
    Mr. Scott. Thank you.
    Mr. Coble. I thank the gentleman.
    Folks, since only Mr. Scott and I are here and it appears 
we are going to be able to release Ms. Nolan by 4:15, let us do 
a second round.
    Sheriff, supporters contend that this legislation will 
result in a huge cost savings. How will this program save local 
government money, A, and how about Federal programs, if you are 
able to comment to that?
    Mr. Sexton. Well, the taxpayers immediately would have a 
mechanism to deal with especially the low-level non-violent 
offender. As I mentioned in my statement, $75,000 was spent in 
the last quarter of our budget last year for psychotropic 
drugs. This will allow us to have other mechanisms.
    One of the problems that we do have when it comes to 
funding is that many community-based health programs can 
support the psychotropic drugs under particular drug programs 
that are available in the Federal Government now, but as soon 
as that person is incarcerated, we lose the ability of having 
that same drug coverage. I think it is called a 207(b) program. 
So, therefore, we are having to pay that additional coverage. 
So once somebody becomes incarcerated, we have more strings 
that tie us up in a jail situation.
    As far as the Federal programming, the ability to be able 
to possibly intervene in situations earlier, an earlier 
intervention than what we have now, would ultimately save 
family, save local government, State, and incarceration medical 
costs. And then we experienced the loss of three police 
officers in Birmingham last week, substance abusers and 
potential mental health problems. We could save the loss of 
life.
    Mr. Coble. I thank you.
    Ms. Nolan, does the Bureau of Justice Statistics continue--
I don't think we have touched on this--continue to collect data 
on the number of mentally ill within the system and have you 
seen any reduction in the number since you began the Mental 
Health Court grant program?
    Ms. Nolan. Yes, sir. The Bureau of Justice Statistics is 
continuing to collect data and the next round of data will be 
available in 2005. We expect in early 2005, the new data will 
be available.
    And the next part of your question? I am sorry.
    Mr. Coble. I just discarded it.
    Ms. Nolan. Okay. [Laughter.]
    Mr. Coble. Have you seen the reduction?
    Ms. Nolan. It is too early to tell, sir, because the Mental 
Health Courts have been in existence for such a short period of 
time. It is too early to be able to tell exactly what the 
results are.
    Mr. Coble. I thank you.
    Dr. Monahan, you indicated in your testimony that you have 
done research on the Mental Health Court program the Department 
of Justice is currently managing. How does that program differ 
from the program described in this bill, A, and what are the 
advantages and disadvantages of this approach?
    Mr. Monahan. Yes, sir. I think that the bill envisions 
Mental Health Courts that could function very much as the 
courts that are currently funded by the Office of Justice 
Programs. I am involved in the evaluation of the first seven of 
those programs funded by the National Institute of Justice. We 
have a few more months of that evaluation, and then the 
MacArthur Foundation is going to fund the evaluation, as Ms. 
Nolan said, of the actual outcomes, which will take longer.
    Some of the initial results of this process evaluation, it 
seems like the seven Mental Health Courts, early on, Mental 
Health Courts accepted primarily misdemeanors. The new Mental 
Health Courts, many of them are accepting felonies, primarily 
non-violent felonies. But they are demanding that the defendant 
plead guilty before he or she can get in the Mental Health 
Court. They are not just suspending prosecution.
    And indeed, early on, the Mental Health Courts were very 
reluctant to place people in jail if they didn't adhere to 
mental health treatment. The newer Mental Health Courts, if you 
don't go to treatment, then you do go to jail. And they are 
also, finally, increasing using the criminal justice system 
supervision, for example, probation rather than some kind of 
social work.
    Mr. Coble. I thank you, Doctor, and I say to my friend from 
Virginia, now you owe me a minute and 4 seconds. [Laughter.]
    Mr. Scott. Thank you. Dr. Monahan, do insanity defenses get 
involved in these?
    Mr. Monahan. No, sir, they do not. Insanity defense, 
despite many people's views to the contrary, are generally 
raised in about one percent of prosecutions. It fails three-
quarters of the time that it is raised. So only one-quarter of 
1 percent of criminal cases are disposed of by the insanity 
defense. Those people usually spend at least as much time in 
the hospital as they would have spent in jail.
    Mr. Scott. Mrs. Poe, in your testimony, you ended up that 
your son ended up getting arrested. Were you able to get 
services for him without him being arrested?
    Mrs. Poe. No. No. When he became psychotic, he was off of 
his medication--and I could not get the help.
    Mr. Scott. And after he was arrested, did you get the help?
    Mrs. Poe. No. The treatment, the help only came in 2001 
when the Assertive Treatment Team became involved, and that did 
the trick. That is a very important part.
    Mr. Scott. And was that a result of the criminal justice 
system or the mental health system?
    Mrs. Poe. It was a part of the mental health system and 
June Poe. [Laughter.]
    Mr. Scott. Okay. Dr. Monahan, we have been talking about 
coordinating the service delivery system. There is a slight 
difference between coordinated and integrated services, that is 
whether you have two different services, one for drugs and one 
for mental health, or they are provided together. Does this 
bill address that situation, where they might be coordinated 
but not integrated?
    Mr. Monahan. Yes, sir, I think it does. I think, Mr. Scott, 
exactly as you mentioned before, there are two different kinds 
of funding issues here. The first is either the coordination or 
integration, what my colleague Henry Steadman has called the 
boundary spinner. You need somebody to be at that boundary 
between mental health and criminal justice.
    But then, secondly and more expensively, are the services 
themselves. We often talk about diversion from the criminal 
justice system. Well, that is important, but the more important 
issue is diversion to what? Where are these people going? You 
can't divert people to services that don't exist.
    So I think that on the integration versus coordination 
issue, in the treatment of co-occurring disorders, the research 
is clear. What you need is integrated, not simply coordinated, 
services. You can't simply bus people to mental health 
treatment here and the substance abuse treatment someplace over 
there. You have to have the same people provide treatment for 
both disorders. This bill certainly allows that. It doesn't 
mandate it.
    Mr. Scott. That is all.
    Mr. Coble. I thank the gentleman and we thank you all. This 
has been a very productive hearing, I believe. Ms. Nolan, Mr. 
Scott and I have accommodated you with your request. You will 
be out of here by 4:15.
    I am going to depart from our normal format and let Mrs. 
Poe--would you like to close out for a minute or two, Mrs. Poe, 
because you have been with this problem far closer than any of 
the others?
    Mrs. Poe. Thank you, sir. I want to state in a positive way 
that I am so grateful for the legislators at the State and the 
national level that are recognizing this problem. I appreciate 
so much working with the NAMI, National Alliance for the 
Mentally Ill. I am not alone. We have many families, many 
consumers who recognize the seriousness of this and we 
appreciate being heard.
    We appreciate the opportunity to educate everyone working 
in the system, from professors and teachers in the schools to 
understand what serious mental illness is, or are, and also the 
importance of the criminal justice system involvement. This is 
a very, very complicated problem. The more education we can 
give to the public about what struggles you gentlemen are 
having in trying to come up with the money for this is major. 
We need to give you the support, as consumers of this important 
issue.
    I have fought a long time and I appreciate what you said. 
If we had only had the Mental Health Courts back there in the 
very beginning when John needed that back in his first jail 
experience, it would have been a far different story. I am 
delighted to know of evidence-based practices going now in what 
I have heard.
    I wish you gentlemen the very best in continuing to help us 
in solving this problem. And anything that we can do as family 
members and as consumers, let us know.
    Mr. Coble. Thank you, Mrs. Poe, Dr. Monahan, Sheriff 
Sexton, and Ms. Nolan. We are delighted to have you all with 
us. We thank you for your testimony today.
    This concludes the legislative hearing on S. 1194, the 
``Mentally Ill Offender Treatment and Crime Reduction Act of 
2003.'' Thank you for your cooperation, and the Subcommittee 
stands adjourned.
    [Whereupon, at 3:59 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                              ----------                              

      Prepared Statement of the Honorable William D. Delahunt, a 
       Representative in Congress From the State of Massachusetts

    I would like to thank Chairman Coble and Ranking Member Scott for 
holding this hearing on the ``Mentally Ill Offender Treatment and Crime 
Reduction Act'' of 2003. I would also like to commend my colleague Rep. 
Ted Strickland for his continued leadership on this bill and other 
initiatives to improve our nation's mental health systems. I appreciate 
your courtesy in permitting me, as a former member of this 
subcommittee, to add my voice in support of this much-needed 
legislation.
    As the distinguished witnesses testified, the mental health 
community and law enforcement are united behind this legislation. And, 
in a rare instance within the current session of Congress, the Senate 
has already moved forward and passed this bill by unanimous consent. I 
hope that my colleagues on the House Judiciary Committee will join me 
to see that the House moves this legislation quickly in the same 
bipartisan spirit.
    As Thomas J. Conklin, M.D., Director of Health Services of the 
Hampden County Correctional Services of Massachusetts, has observed, 
``It can be safely said that American jails and prisons have become the 
nation's default mental health system.'' Our nation's jails and prisons 
are in a state of crisis as they struggle to provide mental health 
services for incarcerated individuals. Congress should proceed with 
haste.
    It is simply wrong that families must resort to the police in order 
to obtain treatment for a loved one suffering from an extreme episode 
of mental illness. Yet, during times of extreme distress, families face 
no alternative because an individual experiencing symptoms like 
paranoia, exaggerated actions and impaired judgment may be unable to 
recognize a need for treatment.
    It is unconscionable and, may well be, unconstitutional, that these 
vulnerable individuals become further marginalized once incarcerated, 
often denied even minimal treatment as a result of inadequate 
resources. Most mentally ill offenders that come into contact with the 
criminal justice system are charged with low-level, non-violent crimes. 
However, once behind bars, these individuals may face an environment 
that only further exacerbates symptoms of mental illness, which may 
otherwise be manageable with proper treatment. Then, caught in a 
revolving door, they may soon be back in prison as a result of 
insufficient and inadequate transitional services upon release. This 
comprehensive legislation is a step in the right direction in order to 
move away from laws that criminalize mental illness. Through this 
legislation, state and local correctional facilities will be able to 
create appropriate, cost-effective solutions. And low-level, nonviolent 
mentally ill offenders will have greater access to continuity of care.
    Congress must also address an unfunded mandate that has been 
imposed on the states for decades. In Estelle v. Gamble (1967), the 
Supreme Court held that deliberate indifference to serious medical 
needs of inmates is unconstitutional ``whether the indifference is 
manifested by prison doctors in their response to the prisoner's needs 
or by prison guards in intentionally denying or delaying access to 
medical care or intentionally interfering with the treatment once 
prescribed.'' Further, in Ruiz v. Estelle (1980), the Supreme Court 
established minimum standards for mental health services in 
correctional settings. It is hard to imagine that more than twenty 
years later, state and local facilities still do not have nearly enough 
resources to come even close to meeting these constitutional 
requirements.
    Congress must do its part to assist state and local governments in 
meeting this burden. We cannot tolerate a system that fails to meet 
constitutional safeguards. Further, we cannot tolerate a system that 
fails to dedicate resources effectively in order to ensure that people 
are getting help instead of jail time. And as a result of state budget 
cuts, communities are looking to the federal government for help.
    For example, a few years ago Sheriff Michael J. Ashe of Hampden 
County created an innovative inpatient mental health care unit within 
one of his prisons, providing a resource to four counties within the 
state. A highly successful facility, the unit allowed inmates to be 
treated in a safe and structured environment, thereby reducing costly 
emergency calls and transfers to the state-run hospital for behavioral 
disorders. Unfortunately, the Sheriff was forced to shut down this 
program in 2001 as a result of a decision by the Commonwealth's 
Department of Mental Health to eliminate all funding for mental health 
services at correctional facilities. Now, Sheriff Ashe is struggling to 
provide minimum treatment to inmates, many of whom are repeatedly 
returning to jail as a result of the lack of diversion programs and 
transitional services. Across the state, other correctional facilities 
and members of law enforcement are battling the same problem--
struggling to create innovative solutions with very limited resources.
    The Massachusetts Mental Health Diversion & Integration Program 
(MMHDIP) is one such program that continues to advocate for new 
networks to facilitate the diversion of mentally ill persons. The 
MMHDIP seeks to promote extensive collaboration between police, health 
and social service providers, consumer advocates, judges, and probation 
officers and, in the past two years, the program has achieved many 
significant accomplishments. The MMHDIP has developed and provided in-
service training on crisis intervention, de-escalation and risk 
management techniques to members of several police departments, 
including Boston, Worcester and Fitchburg. The program also intends to 
develop a ``No Wrong Door'' triage center to receive persons who are 
mentally ill and/or chemically dependant at a downtown Boston hospital. 
Through these types of initiatives, persons in crisis who are 
chargeable with non-serious crimes can be referred to community 
treatment in lieu of arrest. Despite significant progress, the MMHDIP 
faces significant hurdles to develop and implement their goals based on 
the far-reaching needs of communities due to statewide funding cuts.
    Consistent with the federal average, 12 to 16 percent of those 
incarcerated in Massachusetts are suffering from serious mental 
illness. Compared to the average rate of mental illness in the general 
population, inmates in Massachusetts are more than twice as likely to 
have a mental illness. And, consistent with nationwide statistics, the 
recidivism rates of the mentally ill are much higher than average.
    Unfortunately, the situation in my state is not unique. In every 
state, the interaction between law enforcement and individuals 
suffering from mental illness continues to rise. In a very tragic 
situation just last week in Indiana, a law enforcement officer shot and 
killed one young man, John Montgomery, diagnosed with bipolar disorder. 
With four other sheriffs, the deputy had arrived at Mr. Montgomery's 
home to carry out a court order obtained by the parents of this 29-
year-old as the only recourse to help him get medical treatment. Even 
though the deputies knew the young man was mentally ill based on 
previous calls to Mr. Montgomery's home, the officers resorted to 
deadly force when Mr. Montgomery became violent as a result of his 
psychotic state. Perhaps this tragic outcome could have been avoided 
with greater resources allocated for adequate training and education 
for state and local law enforcement. And Mr. Montgomery's parents would 
have seen their son obtain treatment rather than plan for his funeral.
    Having spent over two decades as a state prosecutor, I support the 
goals of this bill to ``foster local collaborations'' between law 
enforcement and mental health providers. What works in one community 
will not necessarily work or be desired in another--solutions must take 
into account the existing landscape as well as the social and political 
dynamics within each community. Given the complexity of the issues 
surrounding the intersection of mental illness and the criminal justice 
system, no magic solution will solve the problems faced in communities 
across America. Accordingly, this legislation does not seek to impose a 
standardized model that must be adopted by all state and local 
jurisdictions. To the contrary, S. 1194 encourages funding for 
specialized programs that will most effectively address the needs of 
local communities.
    Consistent with one of the key objectives set forth by President 
George W. Bush in his State of the Union Address, it is important to 
note that the Department of Justice has endorsed this bill. The federal 
government needs to provide communities with the tools to reduce 
recidivism among returning inmates. The statistics speak for 
themselves. This year alone the majority of the 600,000 prisoners who 
will be released will return to prison after committing another crime. 
Congress must continue do all that it can to ensure that state and 
local law enforcement can address this problem, especially given its 
disproportionate impact on the mentally ill.
    Although I am encouraged that the Judiciary Committees in both 
chambers are giving this issue serious consideration, Congress must 
continue to address other extraordinary gaps in our current system--
such as the ability of prisoners to have continued access to affordable 
medications, case management and affordable housing following release. 
Looking ahead, federal and state government must not ignore these 
challenges, as nearly 57% of offenders are sent back into our 
communities without any supervision or support.
    With this legislation, Congress can join with local communities in 
their response to this problem. Individuals and their loved ones are 
struggling with countless challenges and barriers during a mental 
health crisis. In addition, members of state and local law enforcement 
need access to training and alternatives to improve safety and 
responsiveness. Without adequate funding, projects like those in the 
Commonwealth of Massachusetts will take much longer to achieve their 
goals due to limited staff and resources. Therefore, federal grants 
must be made available for innovative programs that address the 
challenges presented by mental illness to public safety in our 
communities. With this bill, Congress can provide significant support 
to collaborative efforts between law enforcement and mental health 
experts. Without unnecessary delay, I urge my colleagues on the 
subcommittee to move forward on their consideration of this legislation 
so that the House has an opportunity to consider it for final passage 
before the end of this current session of Congress.

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
